REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
        ROCKY MOUNTAIN REGION
    REPORT NUMBER A050009/T/6/Z05017

             MAY 18, 2005
DATE:        May 18, 2005


REPLY TO
ATTN OF:     Heartland Region Field Audit Office (JA-6)

SUBJECT:     Review of Federal Technology Service’s Client Support
             Center Controls and Testing of Controls – Rocky Mountain Region
             Report Number A050009/T/6/Z05017

TO:          Larry E. Trujillo, Sr.
             Regional Administrator (8A)

             Barbara L. Shelton
             Acting Commissioner, Federal Technology Service (T)


This report presents the results of the Office of Inspector General’s audit of the Federal
Technology Service (FTS) Client Support Center (CSC) in the Rocky Mountain Region
(Region 8). The Ronald W. Reagan National Defense Authorization Act for Fiscal Year
2005 (Public Law 108-375) directed the Inspectors General of the General Services
Administration (GSA OIG) and the Department of Defense (DOD OIG) to jointly perform
a review of each FTS CSC and determine whether each CSC is compliant, not
compliant, or not compliant but making significant progress, with Defense procurement
requirements.


Objectives, Scope and Methodology

To review the adequacy of policies, procedures, and internal controls in each CSC, we
analyzed a random sample of procurement actions executed between August 1, 2004
through October 31, 2004. We also analyzed a judgmental sample of existing orders
and the steps taken to remediate any past problems in these existing orders. For the
Region 8 CSC, our sample included 12 new awards and 2 existing orders, valued at
$30.8 million and $109.6 million, respectively. The audit was conducted between
October 2004 and March 2005, in accordance with generally accepted Government
auditing standards.


Results of Audit

We determined the Region 8 CSC to be not compliant but making significant progress.
The Region has implemented national controls identified in the Administrator’s “Get It


                                            1
Right” Plan, and has improved its overall contracting practices, compared with our past
audit results. We found no instances of non-compliance with the competition
requirements of Section 803 of the National Defense Authorization Act for Fiscal Year
2002. However, we did find 4 new orders that had procurement compliance
deficiencies, including one order with limited potential financial impact. Our review of
the two existing orders indicated that both orders had prior deficiencies and the CSC
had not yet defined remediation plans. In addition, the CSC modified one existing order
during the audit period to include a revised statement of work (SOW) with no
explanation. As directed in the Ronald W. Reagan National Defense Authorization Act
for Fiscal Year 2005, because the CSC is not fully compliant, we are required to perform
a subsequent audit of CSC contracting practices by March 2006 to determine whether
the CSC has become compliant.

Procurement Compliance Deficiency with Limited Potential Financial Impact. We
identified a $205,000 schedule order for hardware and software systems support that
only had one bid and was awarded without support for best value determination. There
was a large difference between the labor hours proposed and those listed on the
Independent Government Cost Estimate, and neither FTS nor the client addressed the
level of effort in their evaluations of the proposal to establish the reasonableness of the
total price for labor.

Other Procurement Compliance Deficiencies. We identified three orders that had
procurement compliance deficiencies without potential financial impact.

•   A $252,000 schedule order for installation of audio-visual systems was not evaluated
    in accordance with the SOW evaluation criteria, which was past performance and
    cost. File documentation indicates that the evaluation was based on cost, technical
    approach, and past performance. There is no financial impact because FTS
    selected the lowest priced proposal.

•   A $1.6 million schedule order for management systems support had option years
    identified in the SOW and the proposal but were not identified on the GSA Form 300.
    The GSA Form 300 did not contain detail of option years, period of performance and
    ceiling amount.

•   A $621,000 schedule order for waste management services and software support
    did not have a Memorandum of Understanding in the file nor was the ceiling amount
    identified on the GSA Form 300.

Existing Orders Procurement Deficiencies. Both existing orders had prior deficiencies;
however, the CSC did not have defined remediation plans. In addition, the CSC
modified one of the existing orders to include a revised SOW with no explanation.

•   A $74 million Answer contract order for enterprise network and telecommunications
    requirements and programs support had prior procurement deficiencies including
    inadequate best value determination, no justification for use of a time-and-materials


                                            2
    type contract, no ceiling amount, improper execution of contract options, and
    inadequate contract oversight. During the sample period, the CSC modified this
    order to revise the SOW. However, FTS was not able to provide adequate support
    for why the SOW was revised. FTS stated that this order was “dead” effective
    February 28, 2005, however, FTS did not provide information relative to plans for
    continuing the work once this task ended (e.g., a plan for re-competition).

•   A $35.3 million Millennia contract order for operational support had prior
    procurement deficiencies including an inadequate best value determination,
    improper execution of contract options, and inadequate contract oversight. FTS did
    not provide supporting documentation indicating adequate remediation progress for
    this order.


Conclusion

While not fully compliant, we found that the Region 8 CSC has made significant
progress in implementing controls to ensure compliance with procurement
requirements.       The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in 4 new orders, including 1
with limited potential financial impact, and 2 existing orders that did not have defined
remediation plans and one existing order had been modified to include a revised SOW
with no explanation. As stated in our January 2004 report on the FTS CSCs, we believe
that steps to remedy the CSC procurement problems require a comprehensive, broad-
based strategy that focuses on the structure, operations and mission of FTS as well as
the control environment. Based on the comprehensive recommendations contained in
that report, no further overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. On May 9, 2005, the Rocky Mountain
Region Regional Administrator responded to this report, taking no exception to the
report as prepared. Management’s response is included in its entirety as Attachment 1
to this report.


Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the Federal Acquisition Regulation
and the terms and conditions of the contracts utilized. While we have seen substantial



                                           3
VIII-4
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VIII-A-1
P 2 OF 4                         ATTACHMENT 1
           MANAGEMENT RESPONSE




                VIII-A-2
P 3 OF 4                         ATTACHMENT 1
           MANAGEMENT RESPONSE




                  VIII-A-3
P 4 OF 4                         ATTACHMENT 1
           MANAGEMENT RESPONSE




                  VIII-A-4
                                                                    ATTACHMENT 2



                 REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                         CLIENT SUPPORT CENTER
                   CONTROLS AND TESTING OF CONTROLS
                         ROCKY MOUNTAIN REGION
                     REPORT NUMBER A050009/T/6/Z05017


                               REPORT DISTRIBUTION

                                                                           Copies

Acting Commissioner, Federal Technology Service (T)                           3

Regional Administrator (8A)                                                   3

Assistant Inspector General for Auditing (JA & JAO)                           2

Assistant Regional Inspector General for Investigations (JI-5/KC)             1
